HHS/OIG, Audit - "Review of Expenses and Revenues Presented in
Congressional Testimony by Tulane Medical Center," (A-06-08-00011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Expenses and Revenues Presented in Congressional Testimony by Tulane Medical
Center," (A-06-08-00011)
June 13, 2008
Complete
Text of Report is available in PDF format (497 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Tulane Medical Center's (the hospital) expenses presented
in its congressional testimony were generally accurate and supported by its
financial records.  However, the hospitals revenue as described in the
testimony for the first 5 months of 2007 did not include $6 million of revenue
that it received during this period.  We conducted this review at the request of
the House Committee on Energy and Commerce, before which the hospital testified
at a hearing on August 1, 2007.
The hospital agreed with the overall results of our review and provided
clarifying comments concerning the $6 million of revenue not included in the
testimony.  This was an informational report, and we had no recommendations.